<html>
<title> - THE ROAD TO TOMORROW: ENERGY INNOVATION IN AUTOMOTIVE TECHNOLOGIES</title>
<body><pre>[Senate Hearing 115-499]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-499

                      THE ROAD TO TOMORROW: ENERGY
                 INNOVATION IN AUTOMOTIVE TECHNOLOGIES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   to

 EXAMINE THE OPPORTUNITIES AND CHALLENGES FACING VEHICLE TECHNOLOGIES, 
                ESPECIALLY ENERGY-RELEVANT TECHNOLOGIES

                               __________

                            JANUARY 25, 2018

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-696 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef9f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>                
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
             Dr. Benjamin Reinke, Professional Staff Member
                 Melissa Enriquez, Executive Assistant
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Nick Sutter, Democratic Professional Staff Member
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............     3
Manchin III, Hon. Joe, a U.S. Senator from West Virginia.........     4

                               WITNESSES

Khaleel, Dr. Mohammad A., Associate Laboratory Director for 
  Energy and Environmental Sciences, Oak Ridge National 
  Laboratory.....................................................     6
Bailo, Carla, President and CEO, Center for Automotive Research..    29
Dorobantu, Dr. Mihai, Director, Technology Planning and 
  Government Affairs, Eaton - Vehicle Group......................    62
Gross, Britta, Director, Advanced Vehicle Commercialization 
  Policy, General Motors Company.................................    68
Wimmer, Robert, Director, Energy & Environmental Research, Toyota 
  Motor North America, Inc.......................................    75

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Bailo, Carla:
    Opening Statement............................................    29
    Written Testimony............................................    31
    Responses to Questions for the Record........................   112
Dorobantu, Dr. Mihai:
    Opening Statement............................................    62
    Written Testimony............................................    64
Gross, Britta:
    Opening Statement............................................    68
    Written Testimony............................................    70
    Responses to Questions for the Record........................   115
Khaleel, Dr. Mohammad A.:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................   106
Manchin III, Hon. Joe:
    Opening Statement............................................     4
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Stabenow, Hon. Debbie:
    Opening Statement............................................     3
Wimmer, Robert:
    Opening Statement............................................    75
    Written Testimony............................................    77
    Responses to Questions for the Record........................   117

 
                         THE ROAD TO TOMORROW:
                          ENERGY INNOVATION IN
                        AUTOMOTIVE TECHNOLOGIES

                              ----------                              


                       THURSDAY, JANUARY 25, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. at the 
Washington Convention Center, West Salon Room, 801 Mount Vernon 
Place NW, Washington, DC, Hon. Lisa Murkowski, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    It is a little bit unusual to be here at the convention 
center for an energy hearing, but I think it is certainly 
appropriate given the subject matter that we are discussing 
today.
    I certainly did not mind the short commute over here, and 
it is a great setting to be at the Auto Show surrounded by the 
latest and the greatest the auto industry has to offer.
    I am joined this morning by Senator Stabenow, from the 
great State of Michigan, and she has encouraged me that while 
the Washington Auto Show is good, the Detroit Auto Show is 
great.
    [Laughter.]
    So that might be the locale for our next field hearing----
    Senator Stabenow. That's right.
    The Chairman. ----next year on this same subject.
    I appreciate you standing in or sitting in here this 
morning for Senator Cantwell, our Ranking Member on the 
Committee.
    I understand that Senator Manchin will also be with us, but 
he is enjoying the Auto Show right now and he will be here as 
soon as he can peel himself away from some of the latest and 
the greatest.
    I do want to thank the City of Washington for hosting us. I 
also want to thank the Washington Area New Auto Dealers 
Association, which puts on this Auto Show every year, for 
helping us coordinate the hearing.
    I really do think that this is an exciting time for the 
automotive sector, a host of new technologies that have emerged 
in the recent years. Lightweight materials like carbon fiber, 
titanium, aluminum and composites are increasing vehicle 
efficiency while boosting performance.
    At the same time, advanced manufacturing technologies, like 
3D printing, are decreasing the time and the cost of bringing 
new concepts to market. This has increased the productivity of 
our automotive suppliers, allowing U.S. manufacturers to thrive 
in a hypercompetitive global market. Lithium-ion battery prices 
are falling precipitously and a new generation of batteries is 
powering today's electric vehicles, like the Chevy Bolt and 
Tesla's Model 3. Meanwhile, sales and consumer adoption have 
increased for other alternative fuel vehicles, including the 
hydrogen-powered Toyota Mirai.
    While technologies are changing, so, too, are policies, in 
many countries across the map. In the past year a number of 
nations have issued new targets, mandates and regulations. 
India, for instance, has committed to banning petroleum-powered 
vehicles by the year 2030. France has made that same commitment 
by 2040. China, which has the world's largest automotive 
market, has mandated that 10 percent of the vehicles sold by an 
automaker be electric by the year 2019, with annual target 
increases after that. Here in the United States, I think we are 
going to do what we do best, probably better than anyone in the 
world, and that is innovate.
    I am particularly interested in hearing from our witnesses 
this morning about the status of their efforts, whether at 
private companies or national laboratories, and how research 
across the technology readiness spectrum can be brought to 
market.
    As we think about new automotive technologies, I think it 
is important that we ensure that our federal policies are 
modern, that they are neutral and that they are working as 
intended. We also need to make this a holistic determination by 
considering how electric and hydrogen vehicles will affect, and 
be affected by, our energy system.
    I was mentioning as we were gathering in the back just 
before this, that in Alaska, in our capital city of Juneau, 
which is on an island, we have a burgeoning electric vehicle 
market. The local utility provides nearly 100 percent renewable 
power to its customers by way of five hydroelectric plants, and 
it is engaged in a pretty successful demand response program to 
incentivize charging at specific times during the day. These 
efforts are cutting costs and emissions and the result that we 
are seeing in Juneau is one new EV registration per week which 
in a smaller community, it is about 35,000 people there in our 
capital, that is meaningful. That is meaningful, and it is 
really kind of exciting.
    Many of our remote communities up in the state are 
completely disconnected from a traditional grid, and yet we are 
innovating in some ways that are pretty unique, bringing local 
resources together to decrease costs in very high cost rural 
areas.
    Last year, we held a field hearing, Senator Cantwell was 
able to join us. We were in Cordova, a little fishing village 
in southcentral Alaska, not connected by road to anywhere 
else--not a transportation grid and not an electric grid. We 
focused on hybrid microgrids. Now Cordova's innovators are 
working with the national labs, with the University of Alaska 
and industry to further test the bounds of their microgrids. 
One of their next steps will be installing four EV chargers at 
their city center and studying how EV charging can benefit 
their microgrid. So we are testing applications even in the 
furthest north of this country.
    This morning, I am happy to welcome a distinguished panel 
of witnesses to tell us about the next generation of advanced 
vehicle technologies. We have representation from across the 
automotive sector and across multiple technology development 
stages, from research to suppliers to automakers.
    We have considerable opportunities in front of us, but we 
also have a lot of work to do to realize them, whether it is 
moving our most promising concepts from the lab benchtop to the 
dealership lot and out onto the road; or whether it is 
addressing lesser recognized challenges, such as our mineral 
security, which could make or break entire technologies. We 
cannot allow that to worsen as advanced vehicle technologies 
are increasingly adopted.
    So again, I thank our witnesses in advance of your 
testimonies for being here this morning and all who helped make 
the hearing possible.
    I will now turn to Senator Stabenow for any comments that 
you wish to make, and I am pleased that you are with us this 
morning.

              STATEMENT OF HON. DEBBIE STABENOW, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Well, thank you so much, Madam Chair, for 
holding the field hearing today. I really appreciate your focus 
on this very exciting area of automation and transportation and 
energy. We look forward to having you at some point in Detroit. 
We would welcome you there as well. I also want to thank all of 
the witnesses. I have to tell you that I am very proud that of 
our five witnesses, three are from Michigan. Michigan is in the 
house here today.
    [Laughter.]
    There is a good reason for that. It is because that is 
where the action is on these issues.
    So I want to welcome all of you, particularly Britta Gross 
of Detroit, who is the Director of Advanced Vehicle 
Commercialization Policy for General Motors; Carla Bailo of Ann 
Arbor, who is the CEO of the Center for Automotive Research; 
and Dr. Mihai Dorobantu from Eaton and Galesburg, Michigan.
    We thank all of you for being here and for our witnesses 
not from Michigan, you are welcome to move to Michigan.
    [Laughter.]
    We would love to have you.
    You know, I have often said that Michigan's workers can 
out-build, out-innovate and out-imagine anyone, and we are 
proud of that. A lot of that building, innovating and imagining 
is centering around automobiles and transportation. That has 
been true for 100 years or more, and it is very true today.
    One out of every five vehicles manufactured is manufactured 
in Michigan, and our state's 944,000 auto-related jobs account 
for about 20 percent out of our total workforce.
    We used to say this isn't your father's Oldsmobile. I 
actually grew up on an Oldsmobile car lot in Northern Michigan, 
but we don't do Oldsmobiles anymore. But I will say it is also 
not your grandfather's Chevy or Ford.
    We know that mobility and transportation is rapidly 
evolving. I think more than we even realize that things are 
moving very quickly, both here in the United States and around 
the globe.
    That is why we are proud that Michigan is the home of the 
American Center for Mobility, focusing on all of these issues. 
I had a chance to see some of that great evolution just last 
week at the North American Auto Show--from the emergence of new 
engines powered by electricity or hydrogen rather than oil.
    Did you buy a car, Joe?
    [Laughter.]
    Did you buy one? I want to know.
    Senator Manchin. I am still negotiating.
    Senator Stabenow. Alright, alright.
    To the new lightweight materials and designs to rapidly 
evolving autonomous technologies, these breakthroughs will 
change the way we take our kids to school, go to work and get 
the products that we make to market. Best of all, they have the 
potential to dramatically improve safety and cut the amount of 
carbon we are emitting.
    However, we know that leadership is not a given. If the 
United States does not continue to invest in new automotive 
technologies, we will be left idling in a cloud of dust while 
the rest of the world speeds ahead of us.
    We can't let that happen. To stay in the lead, we need 
strong partnerships between industry and our scientists at the 
Department of Energy and research institutions and all of us 
together. That is why I appreciate the Chair's support for the 
bipartisan Vehicle Innovation Act that Senators Peters, 
Alexander and I introduced in the past, and have reintroduced. 
It is part of the Energy bill on the Floor of the Senate, which 
I strongly support moving forward on. So I want to thank you 
for that.
    I look forward to hearing from our partners today about the 
new research, the new technologies and the new approaches that 
are driving us forward.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Stabenow.
    I have an opportunity to engage in just fascinating 
discussion as we have hearings before the Energy Committee. I 
think some of the subjects that we deal with are the most 
captivating of our time.
    My husband and I have raised two sons. They are in their 
mid- to early-20s right now, and they look at their mother's 
job sometimes with, oh, gosh, how do you sit through all that? 
This is one hearing that caused them to actually say, she's got 
a pretty good job.
    [Laughter.]
    Senator Manchin, would you care to make any opening 
comments before we turn to our witnesses?

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman. It is a 
pleasure to be here with both of you.
    I want to thank Lisa for setting this up here--the most 
appropriate place for us to be and also for Debbie, our Ranking 
Member, to be here also from Detroit City.
    Senator Stabenow. That is right. That is right.
    [Laughter.]
    Senator Manchin. I am an old gearhead, so I am a little bit 
late because I was admiring all the new products.
    [Laughter.]
    I have owned everything from General Motors, to Ford, to 
Chrysler, to Toyota. If you make it, I will buy it.
    [Laughter.]
    I really do. I just appreciate it, and I think you all are 
so lucky to be in this industry. They say, if you find a job 
that you love, you never work a day of your life. If you are in 
the auto industry, I think that is true.
    So I want to thank the Committee for hosting this hearing.
    I want us to talk a little bit about West Virginia 
University (WVU). As you know, my alma mater has been competing 
in advanced vehicle technology competitions since 1988, 
beginning with the Methanol Marathon. WVU is actually one of 
the 16 universities chosen to compete in the latest advanced 
vehicle technology challenge, EcoCAR 3. We have over 60 
undergraduate, graduate and Ph.D. students working on this 
project. The multiyear project aims to create a hybrid electric 
Chevy Camaro that reduces the environmental impact but still 
delivers performance. A very exciting project to be discussing, 
especially at this year's Auto Show. I am happy to see Toyota 
represented on the panel.
    I just did a little interview live that was going to go 
back to our Buffalo plant in Buffalo, West Virginia, where they 
make the drivetrain. Now they make the engines they start up, 
the four-cylinder engine, 25 years ago.
    The whole thing about the evolution of the Toyota plant in 
West Virginia, Dr. Toyota. I met him when I was Governor--I had 
gone to Nagoya, Japan, with then-Senator Rockefeller. Dr. 
Toyota was so excited to tell me that against all of the advice 
of all of his high-powered engineers and his business 
consultants, who recommended do not put an engine plant there. 
He was determined to do it, and he put that engine plant in 
Buffalo, West Virginia. Not only has the engine plant become a 
success, it has become a model for Toyota manufacturing. It has 
now grown, and some of the most sophisticated engines in the 
world are made there. Then they went into the drivetrains.
    I was standing by a Highlander, and I said I want you to 
see this beautiful vehicle. Without West Virginia labor, it 
would not move. I said, this thing would not move without the 
engine you put in it and without the drivetrain that you made 
for it. I was very proud of that. We are proud of the Buffalo 
plant and manufacturers of the engines and transmissions.
    Toyota employs 1,900 workers in West Virginia, 
approximately 1,300 in this plant and over 600 at 13 Toyota 
dealerships across the state. Investment by Toyota Motor 
Manufacturing through West Virginia totals more than $1.2 
billion, producing over 697,000 engines and 537,000 
transmissions. Toyota also supports 900 jobs of our automotive 
suppliers. Their contribution to West Virginia's economy is 
vital, and I am glad they are part of our great state. I want 
to thank all of you from Toyota for what you have enabled us to 
do, and all your help for the people of West Virginia.
    I look forward to working with all of you and all of the 
industry. It is very important and so goes the auto industry, 
so goes us. We do not move without you. We are very proud to be 
here, and I look forward to participating until they call us 
and make us go back to the Hill. All three of us would rather 
be right here----
    Senator Stabenow. That is right.
    Senator Manchin. ----than on the Hill.
    [Laughter.]
    The Chairman. Thank you, Senator Manchin.
    With that, we will now turn to our witnesses. I will 
introduce each of you. We will go down the line, beginning with 
Dr. Khaleel.
    I would ask that you try to keep your comments to about 
five minutes. Your full statements will be included as part of 
the record. That will allow us plenty of opportunity to make 
inquiry, provide for questions and answers, going back and 
forth and, hopefully, good dialogue this morning.
    Joining us on this morning's important panel is Dr. 
Mohammad Khaleel. He is the Associate Laboratory Director for 
the Energy and Environmental Sciences Directorate at Oak Ridge 
National Laboratory (ORNL). We appreciate the good work that 
comes from our many national labs around the country. It is 
good to have you this morning.
    Ms. Carla Bailo, who is the President and CEO at the Center 
for Automotive Research, has already been acknowledged by 
Senator Stabenow. Nice to meet you and to have you here.
    Dr. Mihai Dorobantu, who is the Director for the Technology 
Planning and Government Affairs at Eaton Vehicle Group. Again, 
a Michiganer, and is that right?
    Senator Stabenow. Michigander.
    The Chairman. Michigander, okay.
    Senator Stabenow. Yes.
    The Chairman. Okay, I have to get that right.
    Ms. Britta Gross, also a Michigander, Director, Advanced 
Vehicles Commercialization at General Motors. Nice to have you 
with us.
    And Mr. Robert Wimmer is the Director for the Energy and 
Environmental Research with Toyota. It is good to have the full 
panel with us.
    Dr. Khaleel, if you would like to start off this morning, 
and we welcome you.

  STATEMENT OF DR. MOHAMMAD A. KHALEEL, ASSOCIATE LABORATORY 
   DIRECTOR FOR ENERGY AND ENVIRONMENTAL SCIENCES, OAK RIDGE 
                      NATIONAL LABORATORY

    Dr. Khaleel. Thank you, Senator.
    Chairman Murkowski and members of the Committee, thank you 
for the opportunity to appear before you today with this 
distinguished panel.
    Today, I want to discuss the challenges and opportunities 
we see in the nation's transportation sector. The rapid 
increase in vehicle electrification and the introduction of 
autonomous vehicles is revolutionizing the transportation. 
These technologies will forever change personal mobility, the 
movement of goods and the society in fundamental ways. A smooth 
transition to this future requires scientific innovations.
    At Oak Ridge National Lab our scientists and engineers work 
with the industry and other partners to produce breakthroughs 
for most efficient and cleanest forms of transportation. For 
example, our staff enable to innovate in the area of safer, 
high energy, density vehicle batteries. We have increased the 
battery energy content fivefold while lowering the cost by a 
factor of five. We co-optimized engines and fuels with ultra-
low emissions and ultra-high efficiencies. An electric motor 
made with low cost domestic materials--that generates 
significantly more power than the electric motor that uses rare 
earth elements that we use today.
    It was at the ORNL's National Transportation Research 
Center, DOE's only transportation facility, that we developed 
the world's first wireless vehicle charging system capable of 
transferring 34 kilowatts of energy. We are now on the way to 
delivering 100 kilowatt system. Bidirectional, wireless 
charging can make recharging much easier while ensuring that an 
electrified transportation system is a benefit and not a burden 
to the nation's power grid.
    ORNL's AMIEs project demonstrate how a hybrid electric 
vehicle can wirelessly transfer power to and from a home that 
is generating energy using solar panels. The benefits are 
multiple folds: energy reliability for the homeowner, more 
flexibility for the electric grid operator and the ability to 
use the vehicle battery for energy storage.
    ORNL's supercomputers, especially Titan and the upcoming 
system, Summit, resources are being leveraged to model and 
simulate the behavior of advanced vehicles and engine systems. 
These resources, including the next generation Summit 
supercomputer, funded by the DOE Office of Science, is expected 
to be the world's most powerful, when it comes online this 
year, enabling the artificial intelligence systems needed to 
control and integrate autonomous and connected vehicles.
    Even as we look to the future of electrified vehicles, the 
internal combustion engine is still the workhorse of the 
transportation sector. ORNL and other national labs are leading 
DOE's co-optima initiative focused on combining fuels and 
combustion research to maximize vehicle fuel economy and 
performance.
    The labs are researching breakthroughs for vehicles powered 
by hydrogen fuel cells, focus on lowering cost, improving 
onboard storage and supporting hydrogen infrastructure through 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f1b9c3b1a292909d94">[email&#160;protected]</a> program.
    At ORNL we are also using capabilities of the manufacturing 
demonstration facility and the carbon fiber technology facility 
to come up with breakthroughs in low cost carbon fibers, 
composite materials and 3D printing of tools and dies for 
faster and cheaper production methods to improve the global 
competitiveness of the American automakers.
    Partnerships with the industry and academia are crucial for 
sharpening the research activities and efforts of the national 
labs, guiding the way to the most impactful scientific results 
for real world success.
    We are a co-founder of the Institute for Advanced Composite 
Manufacturing Innovation, IACMI, bringing together over 160 
members from the private and public sector to move carbon and 
other fiber composites into the automotive market.
    Just last month, ORNL joined 19 other private companies and 
universities and state agencies in a new initiative called 
TennSMART to accelerate the development and the deployment of 
mobility innovation in Tennessee.
    In conclusion, ORNL and other national labs stand ready to 
work with the public and private partners to develop and 
demonstrate breakthroughs in science and fundamentals, bringing 
them to the road.
    I thank you again for the opportunity to provide this 
briefing, and I would welcome your questions.
    [The prepared statement of Dr. Khaleel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Khaleel.
    Ms. Bailo, welcome.

         STATEMENT OF CARLA BAILO, PRESIDENT AND CEO, 
                 CENTER FOR AUTOMOTIVE RESEARCH

    Ms. Bailo. Thank you very much.
    I'd like to thank Chairman Murkowski and also Senator 
Stabenow, Senator Manchin, for the opportunity to address you 
today.
    I'm Carla Bailo. I'm President and CEO of the Center for 
Automotive Research in Ann Arbor, Michigan. We do, we are a 
non-profit, independent, unbiased research facility that brings 
together stakeholders for discussions and really trying to 
solve and do the research for some of the issues that are 
facing the automotive industry.
    For a little bit of a personal background, I was born and 
raised in Michigan. I have cars in my blood. I had 35 years in 
the automotive industry, prior to two and a half years in 
academia where I led smart mobility and smart city research and 
now am fully into the non-profit research side of the business.
    When we look at the automotive industry today, it's really 
in a critical period of disruption. On the one side, sales are 
booming, even though we had a slight drop-off in this past 
fiscal year, and we're seeing high profit models, SUVs, 
crossovers, full-size pickup trucks that are providing 
profitability at levels that we have not seen in some time. On 
the other side, there's a strong need for technology and 
powertrains and electrification combined with autonomous 
connected vehicle technology that are really stretching the 
limits in terms of talent and dollars.
    Really, in order to provide the vast array of technologies 
required to meet the global standards because our automakers 
are all global, for CO2, et cetera, the portfolios that are 
required are very diverse and challenging. To remain 
competitive, the automakers must comply with all the regulatory 
environments including those that are most aggressive globally.
    We've seen nearly all the automakers announcing 
electrification goals. It runs the gamut from start/stop 
technologies all the way through full electrification.
    The dichotomy that exists today is, and we talked about 
this a little bit before the panel began, is we can't make the 
customers buy what they don't want. And our research indicates, 
today, that the internal combustion engine will still comprise 
about 90 percent of global vehicle volume by 2030 and over 95 
percent for North America in 2025.
    The good news is that battery technology is continuing to 
get better quickly driving costs down and improving the range. 
It's difficult, really, to predict, but if this continues the 
proliferation throughout the marketplace could increase 
significantly.
    Throughout the U.S. the percentage of electric vehicles 
varies greatly depending on the infrastructure and the 
initiatives. And on a global level, we see a very similar 
trend. The main drawback that we hear from customers about 
purchasing an electric vehicle is range and the lacking of 
charging infrastructure going along with that as well as 
purchase cost. Although, if we look at the pure economics, the 
total cost of ownership, including serviceability and refueling 
that product, it will break even in a certain amount of time. 
So a lot has to do with informing the customers of the true 
facts of EV ownership.
    We can solve a lot of these issues through technology, 
supply/
demand and clarity on the charging infrastructure which also 
includes the hydrogen infrastructure.
    I'd be remiss if I did not mention that the electric used 
to supply the EV power must be from a renewable source. EVs 
utilizing coal-powered electricity have a greater carbon 
footprint, end-to-end, than a very efficient internal 
combustion engine.
    My last point is really about technology leadership and 
talent. This is a strong passion of mine. And really, if the 
U.S. wants to continue leadership in the electrification race, 
we need to be a hub for this kind of development in the 
automotive industry.
    The countries who create the high standards will drive the 
innovation and grow the talent, and we would really like for 
that to be here in the U.S.
    Thank you for your time.
    [The prepared statement of Ms. Bailo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Dr. Dorobantu, welcome.

STATEMENT OF DR. MIHAI DOROBANTU, DIRECTOR, TECHNOLOGY PLANNING 
         AND GOVERNMENT AFFAIRS, EATON - VEHICLE GROUP

    Dr. Dorobantu. Good morning. Chairman Murkowski, Senators 
Stabenow and Manchin, thank you for the opportunity to testify 
in front of your Committee.
    The industry is in a period of rapid change and it's 
enabled by automation, electrification and connectivity. This 
Committee has correctly identified these trends as enormous 
opportunities as we move into the next generation of commercial 
and passenger vehicles.
    Eaton is a leading Tier 1 supplier with 20,000 associates 
in more than 110 facilities across the United States, and our 
vehicle group employs nearly 3,000 associates in manufacturing, 
research and development in Georgia, Indiana, Nebraska, North 
Carolina and, of course, Michigan.
    As an independent supplier, Eaton's innovations are 
incorporating a large number of vehicles, delivering 
significant fuel consumption improvements both in the U.S. and 
worldwide.
    Regulatory pressure, technology innovation and customer 
expectations are driving the adoption of clean and intelligent 
products, creating exceptional growth opportunities for well-
positioned companies.
    At the vehicle level, the need to simultaneously reduce 
carbon dioxide and nitrous oxide emissions is driving advances 
in internal combustion engines and powertrain electrification, 
both as a means to improve efficiency.
    At the transportation systems level, connectivity and 
better electronics and controls enable step changes in 
efficient utilization of these vehicles.
    Eaton recognized early that the vehicle sector was on a 
trajectory of increased CO2 emissions and petroleum-based fuel 
burn, so we positioned our entire vast R&D portfolio to address 
vehicle energy efficiency allowing the following three 
directions: To first improve the efficiency of the vehicle 
power creation both conventional and electrical, then to 
efficiently distribute that power from its creation all the way 
to the wheels, and finally to optimize the use of that power in 
an increasingly diversified set of needs.
    So over a decade we have worked closely with several 
government agencies that are also pursuing advanced energy use 
in vehicles. Our public-private collaborations with national 
labs, such as Oak Ridge in Tennessee or the National Renewable 
Energy Lab in Colorado, accelerate innovation and promote U.S. 
competitiveness. Eaton benefits from access to leading edge 
talent and capabilities such as high-performance computing or 
vehicle testing equipment as well as precompetitive results. 
But at the same time, we contribute expertise, research 
direction, materials and funding. The result is that working 
together we create and demonstrate new technologies and join in 
the vast state-of-the-art and enhance our competitiveness.
    We also work closely with the Department of Energy through 
its Vehicle Technologies Office and Advanced Manufacturing 
Program. In partnership with the DOE, we successfully developed 
the fundamentals of advanced technologies that are now becoming 
essential elements of new products.
    From the perspective of the vehicle programs at the DOE, 
these play a vital role in maintaining the U.S. technology 
leadership in global markets.
    And especially important is the public-private partnership 
model. These partnerships accelerate innovation several ways. 
They foster collaboration across the industry in ways that are 
not easily achieved with separate commercial entities that are 
acting independently. And thus, we create new opportunities and 
new products. They also connect basic research capabilities in 
universities and national labs with their industrial R&D 
counterpart organizations thus accelerating the pace of 
introduction of innovation. The partnerships also connect 
technology startups, where new concepts are developed, to 
industrial players that have manufacturing capabilities and 
scale. And finally, they also demonstrate the potential of new 
technologies and thus enable product development investments 
that otherwise could not be made in what is, essentially, a 
conservative industry.
    The vehicle programs at the Department of Energy and 
national labs are key to maintaining the U.S. industry's 
leadership position at all the levels of the supply chain. The 
public-private partnership model is proving particularly 
effective in guiding investments in areas that have a promise 
of high impact or perhaps too early, too broad or too unproven 
for industry to pursue alone.
    It is essential that the investments are balanced between 
fundamental research and funding technology demonstration 
programs. In my experience, it is easy to recognize fundamental 
science and that's typically the domain of public investment. 
And it is also easy to recognize new product development which 
is typically the industry's job. However, the transition 
between these two areas is non-trivial. It is at this juncture 
in the innovation process, the public-private partnerships are 
most effective.
    In closing, I would like to thank you again for the 
opportunity to testify. As we can see by the automotive 
innovation that surrounds us here today, the industry is moving 
forward at a rapid pace and we applaud your efforts to 
understand the emerging trends and support American innovation 
in the field.
    Thank you.
    [The prepared statement of Dr. Dorobantu follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Dorobantu.
    Ms. Gross, welcome.

     STATEMENT OF BRITTA GROSS, DIRECTOR, ADVANCED VEHICLE 
        COMMERCIALIZATION POLICY, GENERAL MOTORS COMPANY

    Ms. Gross. Good morning. My name is Britta Gross, and I am 
General Motors' Director of Advanced Vehicle Communication 
Policy. I want to thank Chairman Murkowski, Senator Stabenow 
and Senator Manchin for inviting me here today to talk about 
some of the opportunities and challenges General Motors sees 
facing advanced vehicle technologies, particularly electric, or 
zero emission, vehicles.
    If I may first offer you a perspective about how quickly 
the world is changing. In 2010, when General Motors introduced 
the plug-in Chevrolet Volt, we were one of consumers' first 
experiences with a plug-in vehicle. However, last year 
Americans purchased nearly 200,000 electrified vehicles, 
including battery electrics, plug-in hybrid electrics and fuel 
cell electric vehicles from more than a dozen manufacturers. 
Our own ground-breaking Chevrolet Volt, Chevrolet Bolt EV and 
Cadillac CT6 Plug-in accounted for nearly one-quarter of those 
vehicles. While this sounds like an incredible growth in 
electric vehicle interest, it's nothing compared to what is 
coming.
    You may have heard General Motors recently announced our 
zero, zero, zero vision: that is, our belief in a future world 
with zero crashes, zero emissions and zero congestion. This 
vision represents the convergence of our work in connectivity, 
electric vehicles, autonomous vehicles and car-sharing in an 
effort to move humanity forward. And as part of that vision, we 
announced our plans to bring at least 20 new all-electric 
vehicles to the market by 2023, our next step in moving to a 
zero emissions world.
    We know we are not alone in our optimism. As electric 
vehicles become cheaper, as batteries improve on performance 
and price and as manufacturers reach scale, we will see 
exceptional growth in EV adoption.
    Electric vehicles bring enormous societal, economic and 
technological opportunities. Not only are electric vehicles 
cleaner and quieter to operate, they are also fun to drive 
thanks to the instant torque electric motors provide.
    Because of electric vehicles, General Motors is making 
major financial investments in manufacturing facilities, as 
well as research and development facilities here in the United 
States. We are innovating around battery design and we're 
increasing hiring in areas not always associated with the auto 
sector, like computer science and software design.
    With all the benefits electric vehicles bring, there are 
challenges too. Consumer acceptance of electric vehicles has 
steadily increased, but we still have a long way to go.
    I want to focus on two areas where your Committee could 
help sustain continued growth. The first is consumer adoption, 
and the second is aiding with charging infrastructure build-
out.
    The Federal Electric Vehicle Tax Credit, worth up to 
$7,500, has been an important incentive for EV buyers and is 
without a doubt responsible for helping to fuel EV adoption. We 
appreciate the Senate's role in keeping this customer incentive 
in place as tax reform passed last year. This federal incentive 
sends a particularly powerful signal about the importance of 
vehicle electrification to consumers in all 50 states.
    Right now, when we are on the cusp of attracting more 
mainstream consumers to EVs, is when we need to continue and 
strengthen this positive signal the most. It is a valuable tool 
to allow consumers greater access to EVs.
    On infrastructure, this Committee has a unique opportunity 
to lay the foundation for the future. Mass-adoption of electric 
vehicles represents a large, smart and flexible load that is 
unlike any other load on the electric grid.
    If we do this right and if we plan for smart-charging of 
EVs late at night and in the early morning hours, EVs can act 
as storage devices that make use of under-utilized power plants 
at night and take advantage of intermittent renewables. Thus, 
EVs can lead to a more balanced grid load.
    But all the benefits to the grid can't happen unless the 
United States reaches true scale with EVs. We need EV charging 
stations that are highly visible to consumers and that drive 
consumer confidence in the ability to drive EVs anywhere at any 
time.
    EV charging infrastructure today has grown from non-
existent to over 17,000 public stations, but more is required. 
This market will become more viable and competitive over time, 
but we have a long way to go. This early market currently 
requires continued partnership between electric utilities, 
station operators, vehicle manufacturers and support by 
federal, state and municipal government to establish charging 
stations at the same scale as the 168,000 gas stations across 
the country.
    I would also like to thank the Committee for their support 
for the Vehicle Innovation Act, bipartisan legislation 
introduced by Senators Stabenow, Alexander and Peters, that 
would support the development of new technologies in the 
automotive space, including electric vehicle charging. This is 
important legislation we hope the Congress will pass this year.
    EV infrastructure is not only key to removing the barriers 
to acceptance of electric vehicles, but is also an imperative 
for other innovative and advanced mobility solutions, such as 
car-sharing, ride-hailing and self-driving vehicles. The speed 
with which EV charging infrastructure and EV adoption grow will 
determine the future of mobility in the United States and set 
the stage for even more advanced transportation technologies, 
and leading in these technologies here in the United States 
means we can take these technologies to global markets and 
that's good for all of us.
    Thank you for your time today, and I look forward to 
answering any questions that the Committee members might have.
    [The prepared statement of Ms. Gross follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Gross.
    Mr. Wimmer, welcome.

         STATEMENT OF ROBERT WIMMER, DIRECTOR, ENERGY &
          ENVIRONMENTAL RESEARCH, TOYOTA MOTOR NORTH 
                         AMERICA, INC.

    Mr. Wimmer. Chairman Murkowski, Senator Stabenow, Senator 
Manchin and members of the Committee, Toyota appreciates the 
opportunity to testify before the Committee today on energy 
innovation in automotive technologies.
    Toyota believes there is no one solution to addressing our 
energy and environmental challenges. That's why we're 
developing a portfolio of technologies from advanced gasoline 
and diesel engines to more efficient transmissions, to lighter 
weight materials, hybrid and plug-in hybrid drive systems, as 
well as our zero emission, battery electric, and hydrogen fuel 
cell vehicles.
    It is our hydrogen fuel cell technology that I'm pleased to 
discuss today. Fuel cells are not new. In fact, they were 
developed in the 1800s and provided electricity and drinking 
water for our Apollo and space shuttle astronauts. Systems for 
on-road vehicles combine hydrogen gas stored in onboard carbon 
fiber tanks with oxygen from the air to produce electricity 
that powers the vehicle. A fuel cell vehicle's only emission is 
a small amount of water vapor from the tailpipe.
    For Toyota, hydrogen fuel cells are an integral part of our 
zero emission vehicle strategy. What differentiates fuel cell 
vehicles from other zero emission technologies is their long 
driving range, typically over 300 miles on a fill of hydrogen; 
their ability to refuel quickly, usually under five minutes; 
and scalability of fuel cell systems to virtually any size 
vehicle. Toyota believes retaining key attributes of the 
internal combustion engine allows hydrogen fuel cell vehicles 
to appeal to the broadest range of buyers, ultimately leading 
to greater zero emission vehicle sales.
    Toyota introduced its first retail fuel cell vehicle, the 
Mirai, in 2015. Since its introduction, over 3,000 have been 
sold in California and over 5,000 globally. The Mirai has an 
EPA estimated range of 312 miles on a tank of hydrogen and a 
fuel economy rating of 67 miles per gasoline gallon equivalent, 
about twice that of a standard mid-size sedan.
    Scalability is another important aspect of fuel cell 
technology like adding more cylinders to an engine, more cells 
can be added to a fuel cell stack to increase system power. 
This makes fuel cells the perfect zero emission technology for 
SUVs and trucks which accounted for over 65 percent of new 
vehicle sales in the U.S. in 2017.
    Scaling the technology further, Toyota has developed fuel 
cell systems for both transit buses and tractor trailers. We 
recently announced that Toyota will build 100 second generation 
fuel cell buses for athlete transport during the 2020 Tokyo 
Olympics.
    In the U.S. we have begun testing a proof of concept 
drayage tractor trailer hauling cargo containers from the ports 
of Los Angeles and Long Beach to local destinations and rail 
yards. This tractor trailer has a range of 200 miles per tank 
and has a gross vehicle weight of 80,000 pounds. If successful, 
fuel cell drayage trucks could provide an opportunity to 
eliminate emissions and noise from often highly-polluted and 
underprivileged port areas.
    A great advantage of hydrogen is its ability to be produced 
in a variety of ways from different fuels. Toyota will 
demonstrate one approach with the world's first megawatt scale 
carbonate fuel cell power generation plant and hydrogen fueling 
facility that we are building at the Port of Long Beach to fuel 
our port operations. The Tri-Gen facilities will use renewable 
bio-waste to generate water, electricity and hydrogen.
    Toyota believes the greatest challenge to fuel cell vehicle 
success is not vehicle price nor consumer acceptance, but 
hydrogen refueling infrastructure. California is the leader in 
infrastructure in the U.S., having committed $200 million to 
co-fund 100 hydrogen fueling stations. To date, there are 31 
stations open to the public with potentially another 12 
expected to open this year.
    While impressive, other countries with strong federal 
policy and financial support are outpacing California. There 
are 91 operational hydrogen stations in Japan, 44 in Germany 
and about 20 in Korea. To ensure the U.S. remains competitive 
in the emerging hydrogen economy, the Federal Government needs 
to take a more proactive approach to growing both hydrogen 
infrastructure and fuel cell vehicle sales.
    Finally, Toyota wants to recognize the Department of Energy 
for their ongoing support of hydrogen and fuel cell research, 
development and commercialization. Their investment of over $1 
billion for R&D has accelerated commercialization of the 
technology to the benefit of all. Recently, it's ongoing 
engagement with state and regional authorities to address 
technical questions related to tunnels and bridges and to 
alleviate any concerns about the safety of the technology has 
been highly beneficial. DOE's continued support in these areas 
is critical to eliminating regulatory barriers that will slow 
the roll out of the Toyota technology.
    Toyota strongly believes that a portfolio of advanced 
technologies, highly efficient engines and a range of electric 
drive options are required to meet the sometimes divergent 
needs of customers, regulators and society. With their longer 
range and ability to refuel quickly and scalability, we believe 
hydrogen fuel cell vehicles can fulfill many of those needs.
    We appreciate the opportunity to testify before the 
Committee and we'd be happy to answer any questions.
    [The prepared statement of Mr. Wimmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Wimmer.
    I was just sitting here thinking, I can't remember what 
year it was that President Bush, in his State of the Union, 
made the statement that a child that was born that year, when 
he or she turned 16, they would be driving a car that was a 
hydrogen-powered vehicle. What year was that?
    Mr. Wimmer. I believe it was 2000.
    The Chairman. Yes, I think so.
    Mr. Wimmer. I believe it was 2000. So, we're right there, 
yes.
    The Chairman. Okay, well, we are now in 2018.
    [Laughter.]
    Okay, get moving.
    Senator Stabenow. That's right.
    The Chairman. But very interesting updates from each of 
you. I appreciate that.
    The focus on the innovation and the advancements that we 
have made, how we can move to not only higher safety standards, 
but greatly decreased emissions. I see some in the audience 
here. The Moms Clean Air Force, focusing on how we can do a 
better job, an important job, of reducing emissions when it 
comes to our transportation fleet.
    So thank you for what we have heard today.
    Here in the nation's capital and up on the Hill, there is a 
lot of discussion about infrastructure and what an 
infrastructure package might look like that we could work to 
advance. I would be curious to know, several of you have hit 
upon it. Mr. Wimmer, you certainly spoke to the need for 
infrastructure as it relates to hydrogen stations. Ms. Gross, 
you spoke to the need for charging stations for EVs. But what 
else is out there in terms of energy-related infrastructure 
challenges that we are seeing right now with regards to 
advanced vehicle technologies? If we are putting together a 
package that could help advance these technologies and start 
making a difference, what else is out there other than charging 
stations? And you can amplify, if you want, but I would be 
curious to hear from each one of you.
    Let's begin with Dr. Khaleel.
    Dr. Khaleel. Thank you, Senator.
    So clearly, like you said, charging stations will be 
needed. Other infrastructure for producing hydrogen will be 
needed, but a lot of these depend on, really, electricity 
either from the main grid or from a microgrid.
    So I think the big thing that we really need is to make 
sure our electrical grid is resilient and reliable through the 
introduction of things like microgrids and also energy storage 
in various ways. I think that would be the backbone to all of 
the items you discussed there.
    The Chairman. Very important.
    Ms. Bailo.
    Ms. Bailo. Thank you.
    I fully support the need to have the correct 
infrastructure, both in charging stations and in hydrogen. 
Hydrogen and fuel cells are one of the powertrains that will 
have the greatest impact on full-size trucks and/or commercial 
vehicles. And with the burgeoning 
E-commerce load that we're seeing today, it makes a lot of 
sense to propel that technology.
    When we think about the burden that it will have on the 
grid to reinforce it, microgrids are very essential. We need to 
start trialing those in various areas.
    We also need to look at grid balance and the appropriate 
positioning of where we put those charging stations. It may not 
be equally distributed. You really have to look at the 
demographics of usage.
    We also need to get the private sector involved. Companies 
have to put in charging stations for their employees. All new 
multi-unit dwellings, all new homes should at least have a 
charging station plumbed in as part of its code. Fundamentally, 
same as you, you know, you plumb in it for a dryer today. It 
should be there. It should be ready. Doesn't mean you need to 
put the expense of a charging station, but it's easier to do it 
in the beginning than in the end.
    We also need to focus, as I mentioned before, on 
renewables, making sure that we have a clean energy supply 
coming into that grid.
    Dr. Dorobantu. So I'll reinforce the point about the 
electric grid and especially the electrical grid modernization. 
We have a number of issues, challenges, facing us in the form 
of grid stability, incorporating renewables. People talked 
about microgrids and that is a significant change to our 
infrastructure. But also, things like smart grid management in 
the overall control and distribution, geographically, of the 
electrical grid.
    The Chairman. Ms. Gross.
    Ms. Gross. Yeah, a couple things come to mind.
    First of all, I just echo everything that Carla talked 
about, the public charging, the workplace charging and the 
building codes that would ensure that housing, single family 
homes, multi-dwelling user unit homes, that everything is just 
building in codes that require just a simple dedicated circuit 
when you move into this home so that it's ready to charge a 
vehicle when you move into the home. So I think that's really 
important.
    But beyond that I would say one thing that's really tough 
right now in this early market and why there's a lack of 
investment in EV infrastructure is that it's a really tough 
business case. There just isn't the scale. There isn't the 
utilization of these stations. And so, a business case is very, 
very tough which means there's just not that competition out 
there, which means there's just not the investment.
    One of the likely parties that you can turn to is the 
utility industry. They are experts at deploying electrical 
systems, at maintaining, at operating, they're reliable. They 
do a fantastic job in that industry. But if you look at the 
3,000 utilities in this country, then the 50 state regulators 
for most of those utilities, you start to recognize there's 
nothing that knits them together so that the infrastructure 
they put in, sort of, is adapted to the utility next door and 
the next utility so that we end up with a semblance of some 
national strategy. So coordinating the utility industry and the 
state regulators to participate together is really important.
    And maybe I'll, sort of, just touch on the smart charging 
area of vehicles. It's really important to take advantage of 
this big load coming and do it right by smart charging, you 
know, charge the vehicles in the early morning hours when 
there's low--when the wind is blowing or in the daytime at 
work, when the sun is shining and there's excess electricity on 
the grid.
    Utilities being prepared today with APIs on their front end 
to talk to telematic systems, like our OnStar system, mean that 
utilities could talk to OnStar, talk to all of our vehicle 
drivers and say hey, would you like to take advantage of 
hydroelectric power on the grid right now, we've got access. 
We'll drop your rate a couple pennies. And here you go, charge 
up tonight. You don't care as long as the vehicle is charged by 
six o'clock in the morning.
    So, those kinds of, sort of, forward looking, system views 
of how, what the utility's role is in EV infrastructure and the 
smart charging of this load is going to be really, really 
powerful going forward.
    The Chairman. Mr. Wimmer, final words?
    Mr. Wimmer. Final words.
    [Laughter.]
    I agree with what many of the other panel members said, but 
on hydrogen, I think we can look at, from the infrastructure 
standpoint, the needs to have some standardized codes and 
standards from the different cities and states. In California, 
it's been fairly straightforward because we're dealing with, 
primarily, one entity. But in the Northeast when we look at 
expanding infrastructure to other states you're dealing with 
each individual state and each individual city, and their 
regulatory process is very different. There's a long education 
that goes, or involved education process that the industry has 
to do with each regulator.
    Then also, the hydrogen production, as I mentioned. We're 
looking at one approach, unique approach, to hydrogen 
production. I think there's many other ways. One is DOE's 
hydrogen at scale approach where you're looking at using excess 
renewable or grid energy to produce the hydrogen in a very 
clean and efficient way. To be able to look at other options 
for hydrogen production and transport to the stations would be 
helpful.
    The Chairman. Thank you all very much, very helpful.
    Senator Stabenow.
    Senator Stabenow. Well, Madam Chair, Senator Manchin has 
indicated he is going to have to leave shortly, so I will 
yield----
    The Chairman. He is going to go buy a car.
    [Laughter.]
    Senator Stabenow. He has to go buy a car, so, I will yield 
to him and then I will reclaim my time after.
    The Chairman. Great, great.
    Senator Stabenow. Thank you.
    Senator Manchin. I wish.
    Let me just say, first of all, thank you all for your 
presentations.
    I want to remind everybody that 76 percent of all the 
electricity produced in America comes from coal and natural 
gas, and West Virginia is proud to produce 76 percent of your 
energy. We are an all-in energy state. Water, hydro, solar, 
wind, we love it all. But the fact is, if you want 24/7 
reliability, you have to go with baseload. So don't ever forget 
that right now. We are still trying to move through the new 
technologies, but you have to remember what has us at the dance 
right now.
    I understand a major challenge of the grade of 
manufacturing, and this is from the manufacturing, okay, 
adoption of electric vehicles is access to critical minerals, 
also known as rare earth minerals or rare earth elements. 
China's monopoly in this space is concerning, extremely 
concerning, to me from both the economic and national security 
perspectives. This Committee examined the issue last year and 
we continue to have discussions around how to ensure the U.S. 
consumers and manufacturers have access to these materials, 
including the recreation of a domestic supply chain.
    I find it interesting that the largest global adopter of 
electric vehicles in 2016 was China at 40 percent of global 
demand for these vehicles.
    So my question would be, in light of the use of critical 
minerals and lithium-ion batteries and other components of 
these vehicles, how concerned are you and your company about 
access to critical minerals? It could be shut down at any time. 
You could be choked off at any time.
    So we need you to engage. I think I have three people I 
know it hits directly and everybody can respond.
    On top of that, I needed to finish up on that and rare 
earth elements, so that you will know. We don't mine any rare 
earth elements in the United States of America at all. We do 
not produce one ounce anymore. We are relying on another 
foreign country to produce where you all want to go and where 
the American consumer might want to go, but you have to be 
realistic. We are not prepared to do it. And you are putting 
billions and billions of dollars in investment that could shut 
you down overnight.
    So, again, my little State of West Virginia, we have a lot 
of rare earth minerals that come from the mining of the coal, 
even from some of our waste, it has to be that we are trying to 
contain for the climate which is our mine drainage. We can 
produce and we are working on that, 45,000 tons per year. 
Forty-five thousand tons per year of rare earth elements just 
from the waste in the mining of what we do for the country.
    But it is going to take an investment from the Department 
of Energy working with us. We have our friends here with the 
Department of Energy, and I am glad they are here. We want to 
make sure that you are all aware of that because we are going 
to need your help.
    So, if you could tell me how this could affect you?
    Yes, sir, Mr. Khaleel.
    Dr. Khaleel. So, Senator, I think, a few points.
    On coal, one should look at coal to products and one of 
these products, actually, is rare earth, but there are a lot of 
other things one can do with coal.
    Senator Manchin. Sure.
    Dr. Khaleel. Including, you know, you can produce carbon 
fiber.
    Senator Manchin. We do.
    Dr. Khaleel. When it comes to rare earth, we need also to 
look at substitutes, other substitutes, for example, making 
magnets without any rare earth.
    There is an initiative and an institute funded by the 
Department of Energy, and actually the National Energy 
Technology Lab is part of that, called the Critical Material 
Institute led by Ames National Lab and Oak Ridge is a 
participant in that.
    Senator Manchin. Right.
    Dr. Khaleel. And we've been able to produce electric motors 
with no rare earth elements in them with much higher efficiency 
than existing----
    Senator Manchin. Are you doing that on a commercial scale 
right now?
    Dr. Khaleel. No.
    Senator Manchin. Or just basically in the production, I 
mean, into the----
    Dr. Khaleel. But I think they can move into that easily.
    Senator Manchin. Into commercial.
    Dr. Khaleel. The other thing is when it comes to batteries, 
yes, there are a lot of critical elements like lithium, 
manganese, cobalt, nickel. And you know, clearly, when it comes 
to lithium, for example, we in the United States don't have 
that production. Although we have the resources in North 
Carolina with the----
    Senator Manchin. We're not buying any of it.
    Dr. Khaleel. Right.
    And I think that's a challenge. Today we get it from 
Chile----
    Senator Manchin. I think what I am asking is are you all 
concerned about your supply chain because of our trade 
differences or our trade, maybe, disagreements that you could 
be harmed if something happens in our relationships?
    Dr. Khaleel. I could speak from the research point of view, 
I think, and the innovation.
    I think we need to really invest in the research and the 
innovation.
    Senator Manchin. Okay.
    Dr. Khaleel. To make sure we can produce things at cost.
    Senator Manchin. So right now you are saying you are not 
concerned at all.
    Dr. Khaleel. No, I am.
    Senator Manchin. Oh, okay. That is all I need to know.
    [Laughter.]
    Who would like to speak next?
    I know, but all of you can, if you have time, Madam 
Chairman?
    All of you can really just respond to this, I'm sorry.
    Mr. Wimmer. Well, as a large manufacturer of batteries, 
clearly any interruption in our supply chain materials, we 
would be concerned with, but----
    Senator Manchin. Is that part of your strategic planning 
and thinking?
    Mr. Wimmer. Exactly.
    And we are looking at, as was mentioned by my colleague, of 
technologies, materials that can either substitute in----
    Senator Manchin. Gotcha.
    Mr. Wimmer. ----our electronics, our motors, our batteries 
or diversifications.
    For example, our hybrid batteries, most are nickel metal 
hydride with only a few as lithium-ion. So with diversification 
if there's a shortage in one type of material, it might not 
affect all of our vehicles, but just some.
    It's a concern, but the diversification and moving toward--
--
    Senator Manchin. Well right now, as most of your products 
that you use, as far as your product you manufacture, does that 
come from China? Are you all buying from China?
    Mr. Wimmer. I don't happen to know that.
    Senator Manchin. You don't know that, okay.
    Mr. Wimmer. We can get back to you on that.
    Senator Manchin. We know you are because they are the ones. 
They have most of the----
    [Laughter.]
    We already knew the answer before we asked you.
    [Laughter.]
    But they have the global control of rare earth energy and 
elements.
    I am sorry, Ms. Bailo.
    Ms. Bailo. Thank you.
    Most of the automakers, fundamentally, have a 
diversification of supply. As much as possible they try to 
mitigate that risk. Now if there's only a single source, of 
course, that's a risk too that has to be tackled.
    What each company does is hedge that and look at the costs 
associated with that. When we look at what's happening globally 
for the cost of some of those rare earth materials, as well as 
aluminum and steel----
    Senator Manchin. Sure.
    Ms. Bailo. ----we are seeing significant increases 
recently. So all of that needs to be hedged and put into the 
future plans and it goes into the design optimization process.
    The one thing that really needs to be focused on is the 
reduction of some of those rare earth elements, and that can 
only happen through the technological breakthroughs in research 
that is required. And it needs to be supported, not only within 
the industry, but also within academia and international----
    Senator Manchin. Let me ask one question.
    What time period are you talking about before this 
evolution comes to these new alternative rare earth elements 
that you do not need anymore?
    Ms. Bailo. Well, we've already seen a significant 
reduction, even in the very basics that exist today in 
catalytic converters.
    Senator Manchin. Okay.
    Ms. Bailo. Probably up to 60 percent has been reduced. And 
again, as we keep finding breakthroughs and better chemical 
equations in the battery technology, et cetera----
    Senator Manchin. Sure.
    Ms. Bailo. ----that number will continue to come down. If 
it's ever going to become zero is anybody's guess.
    The other thing I wanted to add on the coal front is I 
don't think we can negate the fact that in some coal plants 
producing energy, if you put in the right catalytic converters 
and others, you can have a pretty efficient plant.
    So, we can also look at----
    Senator Manchin. Not when we had an Administration that 
tried to shut us down completely eight years ago.
    Horrible. Okay.
    Mr. Dorobantu.
    Dr. Dorobantu. Eaton, in its vehicle business, is not 
really a player in the battery, on the battery side of the 
business.
    Senator Manchin. Okay.
    Dr. Dorobantu. So we're not directly affected.
    I can go back and ask about our other industries----
    Senator Manchin. Yes.
    Dr. Dorobantu. ----and get back to you.
    [The information requested had not been received as of the 
date of printing.]
    Senator Manchin. Thank you.
    Ms. Gross.
    Ms. Gross. Yeah, and just to add a couple nuances from our 
perspective.
    Yes, we care about the sources. We have teams of people 
that look around the world and make sure that we know how to 
source these materials.
    One thing that's of interest, though, is that some of 
these, not--a lot of these materials are also not just in 
automotive in our batteries, they're also across all of 
electronics, laptops, cell phones and so on. So, it isn't just 
us tugging on these resources. That's important.
    What also comes back to us is, sort of, the cost of these 
materials. More recently there's been an issue with cobalt. 
Prices increasing. Of course, that just drives prices on our 
side as well and that's a problem for, you know, the price that 
we can offer these vehicles to the consumer. We do watch that 
closely. In fact, the important work that's happening when we 
move from Generation One technology, the Volt that came out in 
2010 and where we are today with Generation Two and the Volt 2E 
as well. In that period, what we're doing is trying to 
streamline our use of those materials, in many cases. It's 
trying to reduce the way, reduce the amount of lithium or the 
amount of cobalt in these systems so that they still operate. 
They're safe. They're durable, dependable, but that we can 
reduce the cost by peeling out and improving either the 
engineering process, the architecture of the system or also the 
manufacturing process itself in how we apply the material.
    We get more and more effective, and that's part of the 
learning process of developing and innovating.
    Senator Manchin. Let me thank all of you as a panel, 
because you have been extremely informative and very 
professional.
    The Chairman. Well, thank you, Senator Manchin.
    No pun intended, but that was a critical question.
    [Laughter.]
    No, it is so important to the discussion because we 
recognize that we have extraordinary opportunities for advances 
in these technologies, but if we can't safely, reliably and 
affordably gain access to those base elements that we need to 
manufacture them, and I appreciate what you have said, Ms. 
Gross, that this is not just in the automotive.
    As we look to build out many of our renewable energy 
sources, whether it is wind turbines and the fact that you need 
to have the coating on the blades and the coating comes from so 
many of these minerals.
    It is an issue that, I think, has finally registered an 
appropriate level of attention within the government. We have 
certainly been pushing it for years on the Energy Committee. 
Now we feel like we have a chorus of voices that are saying, 
hey, yeah, this is really important. Let's not forget it.
    Let's go to Senator Stabenow.
    Senator Stabenow. Thanks very much, Madam Chair. And thank 
you again to all of you.
    There are so many different kinds of issues that come into 
play here from infrastructure to rare earth materials to all of 
the research that needs to be done.
    I want to start with something a little bit different that 
goes to another need that we have in all of this. Ms. Bailo, 
you talked about that, and that is talent, stretching our 
talent right now in what is happening.
    One of my big concerns is that when you look in the big 
picture, National Association of Manufacturers says the next 
seven years we will create three and a half million new 
manufacturing jobs--and at the moment we could fill one and a 
half million of them. As we look at this piece of it as well, 
not only engineers, not only scientists, but skilled trades. 
People that can do coding. People that are interested in a 
career in technical education.
    So my question would be, and I will start with Ms. Bailo 
because you had mentioned this specifically and you are working 
with a variety of folks in this context. What are your thoughts 
on how we look at our educational system and can best prepare 
individuals for jobs, not only tomorrow, but that are right 
here, right now and redesigning? I am working on efforts to 
support more options in college, but also redesigning and 
expanding career and technical education in high school and 
lifting up the privately funded, skilled building trades 
training centers that we have in Michigan and other places.
    I don't know how many times somebody has said to me in a 
manufacturing operation, just give me a skilled welder, give me 
an electrician that can do the pieces that need to be done. So 
what should we be doing in that space?
    Ms. Bailo. Thank you.
    I mentioned it's a passion of mine, so I'll try to not talk 
for a long, long time.
    I think we have to look at the entire chain of education 
and think of ourselves as a lifelong learning industry and 
country starting with even very young children in their 
education to begin to enlighten them into new ways of thinking, 
innovative ways of thinking. A different mindset is needed in 
today's industry than existed before. So starting there and 
then working your way up through.
    I think we need to eliminate the notion that every person 
needs to go to a four-year institution, because some people are 
honestly better skilled and will enjoy a quality of life and 
get rewards from what they love to do. You need to follow your 
passion, and we need to provide students that show that 
aptitude a place. It doesn't have to be four years. We also 
need to provide opportunities for apprenticeships, internships, 
even starting in high school to again, build that passion. We 
need the skilled trades, not only to manufacture the products, 
but to work on the infrastructure that we need for connected 
autonomous vehicles, to do the coding, et cetera.
    The other piece of the puzzle, I believe, is in the four-
year institutions today, we are teaching children to think 
vertically, mechanical engineering, industrial engineering. And 
in today's world, you need to be a systematic thinker. So how 
we can start thinking about new ways to manage education, 
supplanting the standards of education that we require today 
with certification programs. We have a great example of 
Udacity, which is entering the university space that basically 
says, we're going to guarantee you a job. It's a very low price 
you have to pay, around $2,000, 18 months. You have a 
certificate, and you get a job immediately. If that job becomes 
obsolete or changes, you go get another certificate. So there's 
a number of things that we can think about to enable that 
lifelong learning.
    The other part is with technology eclipsing so rapidly, if 
we are not continually teaching and training our existing 
workforces, then they will also become obsolete. It has to be a 
lifelong learning way of doing business.
    Senator Stabenow. Thank you.
    I believe that strongly. I think this is a major issue for 
us and we will develop new technologies and not have the 
talent, the skilled people, that we need for that.
    Anyone else want to comment on that briefly?
    Yes, Mr. Wimmer.
    Mr. Wimmer. The impact of technology on the workforce is 
clearly significant, as you mention. It's really an issue 
Toyota has been working on and, to some extent, struggling with 
for a while.
    Universities have a role to play but so does industry. 
Technology is moving so quickly these days that there needs to 
be a lot of work. We must work together with universities to 
develop programs that ultimately help provide the skills and 
the training for both university graduates and engineering 
fields as well as the technicians to come right to work into 
the workplace.
    We're currently partnering with over 50 community colleges 
and other institutions to train the technicians for our 
dealers, for our manufacturing facilities. They can come in and 
work on tools to prepare them for life in the industry.
    We're also working to promote STEM at a variety of K 
through 12 schools, again, focusing on both the technical 
career path as well as a university engineering career path.
    Finally, I'd like to mention our company's strong support 
for the reauthorization of the Perkins Career and Technical 
Education Act. I understand it's been reauthorized in the 
House, and we would hope that the Senate would continue or 
consider passing the bill as well.
    Senator Stabenow. Absolutely.
    Yes, Ms. Gross.
    Ms. Gross. Yeah, I just, you know, when we talk about this 
very quickly changing industry, it's almost mind boggling 
what's going on right now. And if I just, sort of, share a 
couple, just tidbits.
    Applications from Silicon Valley into GM have increased 100 
percent over just the last couple years, so there's incredible 
interest in the innovation that's being announced these days. 
And that innovation does spur the movement of folks around with 
the talents that we're going to need, because it's just a very 
different place than it was before.
    The second one is that 35 percent of our salaried workforce 
at General Motors right now has been with the company less than 
four years. Stunning. But that's the kind of movement in our 
industry bringing in the talents that we're looking for.
    And so, just as Bob said, we're also looking very carefully 
and investing in STEM programs. In particular, we've made some 
recent investments in Girls Who Code making sure and blacks, 
black girls who code as well, to make sure that we're looking 
at, not only diversity, but the talents and the STEM resources 
and the capabilities that we're looking for also to drive the 
innovation that we need.
    Senator Stabenow. Terrific.
    Yes, Mr. Dorobantu.
    Dr. Dorobantu. At Eaton we are concerned with the future of 
our workforce and the quality of that workforce. Our normal, 
traditional university programs do not produce enough 
engineers, especially in the fields that are now in place, 
software and controls, electronics and so forth.
    So we work with universities, obviously, to try to lay 
track for our workforce through the more traditional channels 
like internships and so forth, but we have worked also with 
some leading universities to establish certificate programs 
around, for example, systems engineering and manufacturing 
technologies.
    I will say that we do spend a lot of time and resources in 
retraining, continuously retraining, our workforce. That is 
important.
    And last but not least, we do have policies in place trying 
to tap into the talent pool, the diversified talent pool. Right 
now, our industry looks very mechanical, engineering, very non-
diverse oriented. We have to change that because there's just 
too much talent that we're not tapping into. And I can get back 
with details, if you need those.
    Senator Stabenow. Great. Thank you.
    [The information had not been received as of the date of 
printing.]
    Senator Stabenow. I know I am about to get--I'm sorry, 
Doctor, did you----
    Dr. Khaleel. Sure, I actually wanted to give you an 
example.
    Last week I was in Corktown, Michigan, and we had a meeting 
with Michigan State University----
    Senator Stabenow. Yes.
    Dr. Khaleel. ----and Michigan Economic Development Council 
about really trying to come up with a new program of how we 
gear to train a workforce around manufacturing. And you know, 
the idea is to bring the capabilities of the university to 
Detroit, but then to co-locate with the Corktown facility so 
people learn how to deal with the new equipment and things like 
that.
    In the State of Tennessee, as you know, the Governor, now, 
said we can, actually everybody in the state can go and do a 
two-year college free. Right?
    So we're trying to actually, around Oak Ridge National Lab 
with the community colleges, to reinvent the program, 2+2. You 
could spend two years in the community college and come work or 
train in the national lab on some of the tools that we have. 
Then if you decide you want to go to the next level and go to 
the university, then the University of Tennessee may be able to 
do that. That's in the works. We're thinking about it, and I 
think it's really an important concept.
    The other thing is, within the State of Tennessee, we have 
something called the Bredesen Center. It's for graduate 
students who actually do their research at Oak Ridge National 
Lab. Many of them are from the University of Tennessee, but 
there is a parallel program for other students from other 
universities. And that, actually, is quite enriching for the 
students and for the lab, not just from a research point of 
view, but they learn other things, in terms of innovation, 
entrepreneurship and things of that nature.
    So that's really another role that the national labs can 
play in helping folks in the country moving forward.
    Senator Stabenow. Thank you.
    I am so glad you could come to Corktown. It was my pleasure 
to be there when that facility was opened.
    Dr. Khaleel. Yes.
    Senator Stabenow. It was truly a great example of 
partnership with the Federal Government, the state and the 
private sector.
    Dr. Khaleel. Right.
    Thank you, Senator.
    Senator Stabenow. Thank you.
    The Chairman. Thank you, Senator Stabenow.
    As we are talking about how we get more, particularly young 
people, into these fields in manufacturing and all of the 
really high-tech skills that we need, I am reminded that in 
most Alaska villages that I visit, it's not the person with the 
Ph.D. that has great value. It's that young kid that can repair 
the snow machine, that can repair the four-wheeler.
    Senator Stabenow. Yes.
    The Chairman. They are the ones that we all look to.
    So making sure that we are not only training them on the 
manufacturing end and, again, kind of, the fun stuff. It is 
those who will be repairing and working on these advanced 
vehicles. It is one thing to know how to fix your father's 
Oldsmobile and the engine that was underneath it and now today 
so much of it is computer-related and making sure that those 
who can be on the repair end of things have those same 
appropriate skill sets as well. So it is changing.
    I just have a couple more questions that I will ask and 
then I will turn back to Senator Stabenow before we conclude.
    I want to pick up on something that you raised, Ms. Gross, 
when I asked the question about infrastructure and what more we 
need to be doing. You pointed out what I think is the 
appropriate role of working with the utilities and a 
recognition that there needs to be some level of coordination, 
or certainly communication, so that there is a better 
understanding as to how, particularly with EVs, we can maximize 
the efficiencies. It goes to a statement that was made earlier 
and this might have been by you, Ms. Bailo, that we can't make 
folks buy things they don't want. It is how we are 
communicating with the public about what is happening with 
these advancements and how they might benefit you, and if they 
do, how you can be a better participant.
    Senator Stabenow and I were speaking before the hearing 
here about driverless vehicles, and I will be the first one to 
publicly admit out loud they scare the living daylights out of 
me.
    [Laughter.]
    And she described, or you described as well, Ms. Gross, 
your experience last weekend of driving hundreds of miles 
without touching the wheel.
    What is the effort out there within the industry to help 
better educate the consumer, make us feel more comfortable, but 
also allow us to recognize the benefits that can come when we 
are smartly using the advanced technologies that the industry 
is clearly poised to help deliver? It is, kind of, a broad 
question, but I am curious to know what your response might be.
    Ms. Gross. Yeah, it's a wonderful, wonderful question 
because it's, sort of, at the crux of the opportunity right now 
is how do all players play together and take on part of the 
role, because it is a very large challenge.
    It's unifying utilities and their role in building and 
installing infrastructure. It's also rallying environmental 
groups and industry groups to cooperate on national awareness 
campaigns.
    You know, there's a lot of, there's just a lot of 
cooperation that has to go on.
    Maybe if I just touch on first the infrastructure side of 
it. Back in 2007 when we were just penciling out the Volt 
program and we were, sort of, reflecting on what we had learned 
from EV1 in the '90s, it was very clear that one of the major 
strategies that was either going to make or break electric 
vehicles was going to be the engagement of electric utilities 
because we had learned in EV1 that they have to be a partner 
right by your side. So back in 2007 we set up a very large and 
broad partnership with EPRI, the Electric Power Research 
Institute, and about 50 of its utility members who were very 
forward-leaning looking at electric vehicles. Then so, we back 
then said now we've been working on this a decade. Now we're up 
to 200 or so utilities that really work very cooperatively 
together on aligning policy priorities, aligning talking 
points, so that when they're talking to consumers and we're 
talking to consumers, we're using the same vocabulary. We're 
answering questions in the same way. We have the same 
understanding of how the grid operates and where the issues are 
and where the issues are not and where the opportunities are.
    And so, these areas and then lastly, the role of national, 
you know, encouraging EV education and awareness and the role 
of utilities. Utilities are so uniquely positioned because not 
everybody buys a car from General Motors. We'd love that if 
that were the case, but we don't have access to every consumer, 
but a utility has access to every single consumer purchasing 
electricity in that service territory. And that path to speak 
to consumers about the importance of electric drive and what it 
means to the grid, our data also suggests and many of the 
studies out there too, suggest that consumers would rather hear 
utilities talk about electric vehicles and the role of 
electricity in transportation than talk to dealers or 
automakers because they're viewed as very trusted third-party 
experts on electricity. So, I think that that role of utilities 
cannot be emphasized enough when it comes to, sort of, the role 
of the, sort of, what else could happen.
    When I look at some of the things that have happened on the 
federal level--Department of Energy had a program in place 
called ``EV Everywhere.'' They were also coordinating and 
convening industry experts, academia, NGO's, everyone who is a 
stakeholder in the EV market. We were working together on EV 
awareness campaigns, and it just needs to be more. It needs to 
be--we need to invest in this, sort of, messaging. And we need 
to, sort of, show a vision nationally.
    One thing I can point to that has been a really nice piece 
of glue is the effort by DOT in cooperation with the Department 
of Energy in establishing these alternative fuel highway 
corridors across the country. Now there's no money assigned to 
that. It would be great if it were also funded, but just simply 
the notion of creating a map of charging stations across the 
country from coast-to-coast has allowed local utilities and 
states to, sort of, recognize how, if they do their part, it 
glues into this larger strategy and vision for EV 
infrastructure.
    So just simply creating a vision and communicating that 
federally and nationally is really, really helpful to help 
these, sort of, disconnected pieces, but important, important 
local stakeholders participate in the solution space for how we 
get these vehicles growing and adopted in the marketplace.
    The Chairman. Let's go to Dr. Khaleel and then----
    Dr. Khaleel. So, I think, Senator, first of all we face 
multiple challenges. The consumers worry, as Carla mentioned, 
about range, so they're anxious about the range, the driving 
range. The other thing they're anxious about is time to charge 
their car, you know, today and with today's technologies it 
takes about 30 minutes to charge a battery to 80 percent 
capacity. So that's also a concern. Then there is another 
concern regarding uncertainty of the demand, so you don't know 
where these charging stations need to be.
    So the utilities, when we speak to the utilities that we 
work with, clearly, they're willing to engage, but the issue is 
also cost. The cost needs to come down.
    There are uncertainties that the consumer face, but also 
the utility folks face to where they place it, it is part of 
their business model and so on. So I think the critical thing 
for us to do is to overcome these challenges.
    And one way to overcome these challenges is really for us 
to win the energy race in these areas. We need to innovate and 
we need to do, to perform, research, work together. The 
companies, the U.S. companies, along with the innovation 
capacity that we have in the country, that includes the 
national labs and universities, to really, you know, move ahead 
of these challenges.
    Ms. Bailo. Just a couple quick examples about things that 
have worked to educate the public.
    One is when Nissan first launched the Leaf in the early 
2012 period. The thing that worked very well was cooperating 
with cities directly and dealerships directly and holding 
public forums with just ``Meet your EV day'' and ``This is how 
you charge the vehicle,'' ``This is how the vehicle performs.''
    A second example is the Columbus Smart City Initiative of 
which Vulcan donated $10 million for basically increasing the 
number of EVs by three times, charging stations, et cetera, 
within the whole city. Part of that initiative involves local 
businesses and working with the automakers, taking the products 
to a company for a daylong event, ride and drive, let people 
drive the vehicle, let them understand how to charge the 
vehicle, let them see how it can be integrated into their daily 
lives. Seeing is believing, and until we have the momentum of 
word of mouth, these kinds of events really, really seem to be 
working.
    Dr. Dorobantu. So I'd like to shift the discussion a little 
bit onto commercial vehicles, much more passenger car vehicles, 
of course, on the roads, but if you look at it from an energy 
consumption perspective, the commercial vehicles are right 
behind the light duty segment in terms of how much CO2 is 
emitted and how much fuel is being burned. Furthermore, that 
consumption is increasing in time as opposed to the passenger 
car market where, because of all the work that's being done and 
all the focus that's on it, the total emissions are actually 
going down.
    So the commercial vehicle space is different. It has very 
different challenges. We do not have the consumer there, but we 
do have the fleets or the operators of these vehicles and they 
have different needs than the consumers in light duty. For 
them, the vehicles are a means of performing work. So, for 
them, things like down time is critical. Total cost of 
ownership is critical. So there are other means, there need to 
be other means who reach that community.
    Things that have worked are demonstration programs, as well 
as investments. I will give one example. We're working actively 
with NREL to look at how the grid and fleets of commercial 
vehicles that have batteries on them could interact and could 
provide benefit and, in fact, improve the value proposition of 
electrifying commercial vehicles by offering grid services. 
That's a different process. The end result is the same. It's 
the education of stakeholders, but the stakeholders in the 
commercial vehicle space have a very different bag that they're 
trying to optimize.
    Ms. Gross. Might I also add one more point when I think 
about consumer awareness and really grabbing consumer's 
attention and that is, I talked about the share mobility 
programs that were operating around the country right now. We 
have 300 Bolt EVs in our Maven program which is a ride-sharing/
ride-hailing program in six cities in the United States. In 
those 300 vehicles, we've been operating only about 18 months 
or so, we have had 400,000 riders in Bolt EVs. These are 
400,000 people that didn't have the ability to experience what 
we always say is a ``butts in seats'' experience where you 
experience the drive in a car which changes your mind instantly 
about how fun these vehicles are to drive. So that's another 
form of how we're embedding electrification in the ability to 
get the vehicles out there, driven, so that people can 
experience and ask the driver, hey, what am I driving, this is 
really fun. That's another form of awareness growing in the 
country.
    The Chairman. Senator Stabenow.
    Senator Stabenow. Well, thank you again, Madam Chair.
    I want to talk about public-private partnerships in my last 
questions, because we know we have basic research and then we 
have what companies are doing in terms of commercialization and 
so on.
    The big debate, it seems to me, that we have, in terms of 
the Federal Government's role, of course, sometimes we are 
doing it, sometimes we are not, is this piece in the middle 
which is sometimes called ``the Valley of Death.'' You get 
ready to commercialize or get ready to take that step and then 
there is not the support in the middle of that.
    One of the things Department of Energy has done is the 
SuperTruck program. Dr. Dorobantu, I know that your company is 
a participant in this, so I wanted to get your thoughts.
    As you know, 50/50 cost share, public-private partnership 
promoting research and development and demonstrating 
technologies to improve, as you were talking about, commercial 
vehicles, the Class A tractor trailer trucks, and the goal is 
to improve, by more than 100 percent by 2020. I should just 
remind all of us that trucks haul as much as 80 percent of the 
goods for the country. They make up only 4 percent of the 
vehicles, but they are 20 percent of the fuel. So a major way 
to save fuel economy is to focus on trucks. What is your 
assessment of the SuperTruck program at this point?
    Dr. Dorobantu. So, just----
    The Chairman. Push that button.
    Senator Stabenow. I'm sorry, yes.
    Dr. Dorobantu. There are actually two SuperTruck programs. 
One has been successfully concluded a couple of years back, and 
then there's another one that has recently been launched.
    Senator Stabenow. Correct.
    Dr. Dorobantu. So I'll talk about the one that----
    Senator Stabenow. We know the first phase had a number of 
impressive results.
    Dr. Dorobantu. Right.
    Senator Stabenow. I am just wondering, as it goes forward 
what we need to do.
    Dr. Dorobantu. Right.
    What this program allowed us to do, the industry as a 
whole, not, obviously, not just Eaton, is to provide laser 
sharp focus on fuel efficiency at the system level.
    There's been many investments in very particular 
technologies which were needed and the technologies have 
evolved. In a complex vehicle, many technologies have evolved. 
But what SuperTruck allowed manufacturers and suppliers to do 
is to put these technologies together in packages and see what 
actually works and what doesn't when they're put together as a 
system. It helped the industry sort out many options and prune 
some of these technologies, but also, we now have the 
technologies from SuperTruck that were evolved under the first 
SuperTruck program already in production. They're saving fuel 
today.
    So to give you some feel about this. When the SuperTruck 
program started, most of the Class A trucks were averaging 
about six miles per gallon. The SuperTruck program itself 
produced some mind-blowing results so we're looking at 10, 11, 
12 miles per gallon trucks, but those were research trucks. 
What we are seeing with the trucks that are coming out today, 
that are incorporating the technologies that were demonstrated 
and that were straightened out under the SuperTruck II program, 
those trucks are in the 7.5 to 8.5 miles per gallon today. 
Moving from under 6 to 7.5, 8 miles per gallon, in a period of 
maybe, five, six years, that is a tremendous achievement. It 
has impact in the fuel consumption, it has impact in the cost 
of transportation and it has impact in our competitiveness 
worldwide.
    When we started SuperTruck, we were way behind the European 
trucks. Now we are, with the combination of technologies that 
were developed under SuperTruck and very stringent CO2 
regulations that were recently enacted, we're in a position to 
overtake the Europeans that pride themselves in being fuel 
efficient by bounds and leaps. So very excited with the outcome 
of the SuperTruck program and we're looking forward at this 
second addition.
    Senator Stabenow. Well, thank you, Doctor.
    We are going to need you to help tell this story. I 
indicated earlier that vehicle technology, the Innovation Act, 
with the Chair's support and the Committee, is in the Energy 
bill on the Floor which is very important. But I do need to 
say, that we are going to have a big debate on this, in 
general, of these partnerships because the Administration has 
proposed cutting nearly $1 billion from the Department of 
Energy's Office of Science and cutting the Vehicles 
Technologies Office budget by 73 percent. So we are going to be 
having a lot of discussion. We are going to need your help, all 
of your help, on why this is important.
    And then just to that, broadening as we look at other 
countries because we know we are in a competition with other 
countries. You are in competitions between companies, 
obviously, as well. For all of us, this is about American 
leadership and remaining the leaders in this technology.
    Mr. Dorobantu, your company, I know, does business in 175 
different countries, including the U.S., and we are glad you 
are in Michigan. Can you talk about, a little bit more about, 
how the U.S. compares to other major world economies in terms 
of supporting technology innovation? And from your perspective, 
how does a company with a global footprint decide where to 
invest its research and development dollars?
    Dr. Dorobantu. Thank you. That is a complex question.
    But I'll start, when we look around the world at what other 
people are doing, what other countries or regions are doing, 
we're seeing a significant competition in terms of advanced 
technologies, obviously, coming from Europe.
    I will give one example of how other countries do this. So 
the United Kingdom, for example, has realized about five, ten 
years ago that it had lagged behind from being a leader in the 
automotive world, to becoming a lagger. They have made some 
crystal-clear decisions in terms of investment and strategy to 
redress that situation. They view it as an economic, 
competitive edge to invest in innovation. What they have done 
is they have set a massive public-private partnership called 
the UK Automotive Council. They funded it sufficiently for a 
period of ten years so that they have the stability in that. 
And then they have defined a number of key technologies that, 
if successful, would put the UK back into the saddle. They are 
funding anything from startups to major starts with this sharp 
strategy and with long-term funding associated with it. They do 
use the 50/50 cost share mechanism to make sure that, you know, 
it's not a bunch of scientists, perhaps, like myself, that make 
decisions and then turn out to be wrong. So, they, the cost 
share with the industry is a mechanism of ensuring that the 
research is guided toward actual commercialization.
    I think in terms of how we operate globally, well, we 
obviously have to be where our customers are. So, we do that. 
But we have also global resources, and we have centers of 
excellence that have global reach. So our investment, in terms 
of technology, is done here in the U.S. and this is where we 
put our advanced technology monies. What we do have in other 
parts of the world, we have engineering centers that are, of 
course, trying to adapt these technologies and optimize them 
for the specifics of those markets.
    Senator Stabenow. Thank you.
    Thank you, Madam Chair. I would love more questions, but I 
know in the interest of time at this point, I will save those 
for another day.
    Excellent panel, and we appreciate your input.
    The Chairman. Thank you, Senator Stabenow.
    I would certainly hope that the recent move that we made in 
the Congress to lower that corporate rate is going to be one of 
those forcing mechanisms, if you will, that would allow many 
others to look at the United States as the place to either 
return some of that business to allow for more of whether it is 
the R&D or the manufacturing. Hopefully, that helps with the 
competitive aspect of it.
    I, too, want to thank everyone for the information that you 
have shared with us today. Nobody really thinks about Alaska as 
being innovators in the automotive sector, but we have been 
plugging in our cars for decades.
    [Laughter.]
    All of the cars that I have ever owned had a head bolt 
heater, the little plug is sticking out of the car, out of the 
front of the grill, and you just plug in your car because if 
you don't plug in your car, it doesn't start the next morning, 
at least this time of the year in Fairbanks where I learned to 
drive.
    So, maybe not the precursor, but we certainly understand 
what it means to plug your car in, and I am just amazed and 
very inspired by the level of innovation that we have heard 
here today. Maybe I need to take advantage of some of the ride 
sharing that you have talked about, but still the driverless 
one, I am going to feel compelled to still reach for the wheel 
or be more hands on. I will get used to it.
    Before we do close though, I want to thank Bob Yoffe and 
Joe Koch and all of the convention staff that made this hearing 
possible and allowed us to work our staff with yours. It was a 
good opportunity. I certainly have enjoyed it.
    Senator Stabenow, I am just even more motivated to come to 
Detroit, come to Michigan----
    Senator Stabenow. Great.
    The Chairman. ----and see more of what you have going on. 
And you, in turn, are welcome to come to Alaska and you can 
see----
    Senator Stabenow. Yes.
    The Chairman. ----how in our little communities, the Mayor 
of Cordova, one guy, saying, you know what? We are going to be 
a demonstration case in our little fishing village and start 
them one little charging station at a time.
    Senator Stabenow. That's right.
    The Chairman. So we may have to bring you up to Cordova, 
and I will go to Detroit.
    Senator Stabenow. That's a deal.
    The Chairman. With that, we stand adjourned.
    [Whereupon, at 11:51 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
